U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




 TOP TEN MANAGEMENT CHALLENGES
                    September 2004
                   MAJOR CHALLENGES
                                      FOR THE
  U.S. DEPARTMENT OF COMMERCE
                                 TOP 10 CHALLENGES

 1.   Strengthen Department-wide information security.
 2.   Effectively manage departmental and bureau acquisition processes.
 3.   Successfully operate USPTO as a performance-based organization.
 4.   Control the cost and improve the accuracy of Census 2010.
 5.   Increase the effectiveness of marine resource management.
 6.   Promote fair competition in international trade.
 7.   Enhance export controls for dual-use commodities.
 8.   Enhance emergency preparedness, safety, and security of Commerce facilities
      and personnel.
 9.   Continue to strengthen financial management controls and systems.
10.   Continue to improve the Department’s strategic planning and performance
      measurement in accordance with GPRA.




 The Office of Inspector General, in assessing its work at the close of each semiannual
 period, develops its list of Top 10 Management Challenges the Department faces. Each
 challenge meets one or more of the following criteria: (1) it is important to the
 Department’s mission or the nation’s well-being, (2) it is complex, (3) it involves sizable
 resources or expenditures, or (4) it requires significant management improvements.
 Because of the diverse nature of Commerce activities, these criteria sometimes cut across
 bureau and program lines. Experience has shown that by aggressively addressing these
 challenges the Department can enhance program efficiency and effectiveness; eliminate
 serious operational problems; decrease fraud, waste, and abuse; and achieve substantial
 savings.




 Majo r Challenges for the                    1                            September 2004
 U.S. Department of Commerce                                   Office of Inspector General
CHALLENGE 1
STRENGTHEN DEPARTMENT-WIDE INFORMATION SECURITY
Many of Commerce’s information technology systems and the data they contain have
national significance. Loss of or serious damage to any of these critical systems could
have devastating impacts. Therefore, identifying
weaknesses in them and recommending solutions is          Examples of Critical Data Processed by
                                                                   Commerce IT System s
a continuing top priority for the Office of Inspector
General. The Federal Information Security                    •  The Bureau of Industry and Security’s export
Management Act of 2002 (FISMA) provides a                       license data helps control the release of dual-
                                                                use commodities to countries and entities of
comprehensive framework for ensuring that                       concern.
information resources supporting federal operations          •  The National Oceanic and Atmospheric
and assets employ effective security controls.                  Administration’s satellite, radar, and weather
                                                                forecasting data and systems provide
FISMA requires OIGs to perform independent                      information used to protect lives and
security evaluations of their agencies annually.                property.
                                                                         •     The Economics and Statistics
                                                                               Administration’s economic indicators
During this fiscal year the Department has                                     have policymaking implications that can
continued to focus on improving information                                    affect the movement of global commodity
security. On June 29, 2004, the Secretary issued a                             and financial markets.
                                                               •               The U.S. Patent and Trademark Office’s
memorandum highlighting the need for giving high                               patent and trademark information is essential
priority to information security: he directed                                  to administering patent and trademark law,
secretarial officers and heads of operating units to                           promoting industrial and technical progress,
allocate sufficient resources for this purpose,                   and strengthening the national economy .
support their unit’s chief information officer (CIO)
in managing information security, and ensure that senior program officials who authorize
systems to operate have received sufficient training in the certification and accreditation
(C&A) process. When implemented properly, certification is a powerful tool for helping
ensure that appropriate security controls are in place, functioning as intended, and
producing the desired outcome. Through accreditation, agency officials formally accept
responsibility for the security of the systems over which they have management,
operational, and budget authority and for any adverse impacts to the Department if a
breach of security occurs.

The Department’s CIO has continued to push completion of system certifications and
accreditations; updated Commerce’s information security policy on such topics as
managing the IT system inventory, assessing security controls, and preparing plans of
action and milestones for remediating security weaknesses; and developed a policy on
peer-to-peer file sharing. 1 But similar to last year’s FISMA review, our FY 2004
evaluation found that the Department still faces considerable challenges in adequately
safeguarding the hundreds of Commerce systems, particularly with regard to effectively
conducting these critical activities: (1) assessing risk and determining appropriate
security controls, (2) testing and evaluating these controls, (3) certifying and accrediting
systems, and (4) ensuring that personnel with specialized information security

1
 Peer-to-peer file sharing allows individual users of the Internet to connect directly through the Internet to
each other so as to transfer or exchange computer files.

Majo r Challenges for the                             2                                  September 2004
U.S. Department of Commerce                                                  Office of Inspector General
responsibilities receive the necessary training. (See September 2004 Semiannual Report,
page 42.)

The Census Bureau is a case in point. Our review of the bureau’s information security
program found significant deficiencies in its C&A documentation and processes, such as
risk assessments that did not sufficiently identify system vulnerabilities, and security
plans that assigned improper and inconsistent sensitivity levels to systems and did not
adequately describe the controls that were in place or needed (see September 2004 issue,
page 23). The documentation also did not identify residual risks in the certified and
accredited systems, and thus provided no evidence that the accrediting official understood
the level of risk being assumed in authorizing system operations.


                                   Framework for an
                             Information Security Program

              Risk                                                        Categorization of
              Assessment                                                  Information &
                                                                          Information Systems

                                         Agency
                                         Information &
                                         Information
         Security                                                              Security
         Planning
                                         Systems                               Authorization
                                                                               (Accreditation)




                     Security Control                   Security Control
                     Selection &                        Assessment
                     Implementation                     (Certification)




       Source: http://csrc.nist.gov/organizations/fissea/conference/2004/presentations.html,
       accessed October 5, 2003.



For the past 3 fiscal years, the Department reported information security as a Federal
Management Financial Integrity Act (FMFIA) material weakness in its Performance &
Accountability Report, in part because our reviews of the C&A documentation for
numerous national- and mission-critical systems reported as certified and accredited have
continued to identify significant deficiencies.

This year we again reviewed the C&A documentation for a sample of the Department’s
national-critical and mission-critical systems reported as certified and accredited.
Although we observed some improvements, our review found serious shortcomings in the
risk assessments, security plans, contingency plans, and testing to ensure that security

Majo r Challenges for the                               3                                 September 2004
U.S. Department of Commerce                                                   Office of Inspector General
controls are implemented and working as intended. Thus, we recommended that
information security should remain a material weakness for FY 2004. Nevertheless, we
were pleased to note some progress. In particular, based on our review of C&A
documentation, we found the C&A processes of the Bureau of Economic Analysis and
Office of the Secretary provide reasonable assurance that their national- and mission-
critical systems are adequately protected.

MATERIAL WEAKNESS AT USPTO RESOLVED

Like the Department, USPTO reported information security as a material weakness in
prior-year Performance & Accountability Reports, which it submits separately. However,
USPTO has reported all of its critical systems as certified and accredited, and we are
pleased to report that our review of a sample of C&A materials confirmed the adequacy
of its C&A process and documentation. We therefore consider USPTO’s material
weakness resolved.

DEPARTMENT-WIDE CONTRACT SECURITY DEFICIENCIES REMAIN

We noted in our FY 2003 FISMA report that inadequate security provisions in
Commerce IT service contracts also place systems at risk. The Department continued to
rely heavily on contractors to provide IT services, spending 65 percent of its IT contract
dollars in this area in FY 2003. Last year’s FISMA evaluation found that while progress
had been made in incorporating security provisions into recent IT service contracts,
provisions for controlling contractor access to Department systems and networks were
generally absent, and there was little evidence of contract oversight or of coordination
among contracting, technical, and information security personnel in developing
appropriate contract security. This year we provided additional analysis of the contract
security issues as well as recommendations to further ensure that information and
information systems are adequately secure when contractor-provided services are used.
Specifically, we recommended that Commerce take steps to ensure that its service
contracts contain the new security clauses, issued in November 2003, and that appropriate
contract oversight occurs. (See September 2004 Semiannual Report, page 43.)

COMPUTER INCIDENT RESPONSE WEAKNESSES NOTED

As part of our FISMA work, we evaluated Commerce’s computer incident response
capability and found that its decentralized structure is appropriate for the Department’s
diverse and multiunit organization. (See September 2004 Semiannual Report, page
43.)However, we identified numerous weaknesses:

   •   No centralized entity to promote information sharing and consistency in response
       processes.
   •   Inadequate incident response procedures.
   •   Incomplete and inconsistent incident reporting by the operating units.
   •   The need for better intrusion detection approaches and specialized tools and
       training.

Majo r Challenges for the                    4                            September 2004
U.S. Department of Commerce                                   Office of Inspector General
The Department CIO concurred with our findings and is taking action to improve
Department-wide incident detection and response.


CHALLENGE 2
EFFECTIVELY MANAGE DEPARTMENTAL AND BUREAU
ACQUISITION PROCESSES

Federal acquisition legislation in the 1990s mandated sweeping changes in the way
federal agencies buy goods and services. The intent was to reduce the time and money
spent on purchasing and improve the efficiency of the process. The latest legisla tive
effort to streamline acquisition is the Services Acquisition Reform Act of 2003, whose
provisions further push for performance-based service contracting: the act provides that
service contracts under $25,000 may be treated as “commercial” if certain performance-
based criteria are met and thereby be eligible for simplified acquisition procedures. As
the Department’s reliance on contractor-provided services increases, so does the
challenge to effectively manage the streamlined acquisition processes these initiatives
fostered, while ensuring that taxpayer dollars are wisely spent and laws and regulations
followed.

This balance is best maintained by adhering to basic acquisition principles: careful
planning, promotion of competition, prudent review of competitive bids, adept contract
negotiations, well-structured contracts, and effective contract management and oversight.
These are essential to ensuring that sound contracting decisions are made and contracts
successfully executed. Problems we have identified with service contracting in the past
include failure to use performance-based task orders where they would be beneficial,
inadequate training in the use of performance-based service contracting, insufficient
planning for contract administration and monitoring, and failure to ensure that adequate
security provisions are included and enforced in IT service contracts.

The Department has recently taken a number of steps to improve management of
Commerce acquisition processes. In March 2004, it mandated the use of standardized
clauses for IT security for all applicable solicitations and contracts, and as part of the
Department’s annual IT security compliance review, its Office of Acquisition
Management (OAM) worked with the CIO’s office to determine whether such clauses are
being included in IT service contracts. Additionally, OAM has established a board to
review the Department’s major acquisitions, competitive sourcing opportunities, and
interagency agreements; and it reports having achieved the goal of using performance-
based acquisitions to award not less than one-half of the total dollar amount the
Department expends on service contracts.




Majo r Challenges for the                   5                            September 2004
U.S. Department of Commerce                                  Office of Inspector General
OIG ACQUISITION REVIEWS CONTINUE

The serious consequences of poor contract management were evident in our review la st
year of a NOAA/NWS contract modification for a transition power source for the
NEXRAD weather radar, which resulted in NWS paying for defective equipment,
contract costs increasing by an estimated $4.5 million, and the purchase of a product that
may not have been the best choice for NEXRAD. (See September 2003 Semiannual
Report, page 25.) OIG continues to monitor the corrective action plan being
implemented as a result of this review and is working with NOAA’s director of
acquisitions and grants to improve the consistency and thoroughness of NOAA’s
acquisition process. NWS has also taken actions in response to OIG’s recommendations,
including issuing a policy directive on acquisition management, and indicates that a
critical element on procurement has been added to the performance plans of staff
involved in the acquisition process.

Currently, we are reviewing NIST’s contract administration process. Our objectives are
to determine whether NIST has (1) effective policies and procedures for processing and
managing procurement actions in accordance with pertinent laws and regulations, (2) an
acquisition workforce that is adequately trained and skilled to handle NIST’s
procurement actions, and (3) a system for effectively and efficiently processing
procurements in accordance with Commerce/NIST policies and procedures.

MAJOR CONSTRUCTION AND RENOVATION PROJECTS

Contracts for large, costly, and complex capital improvement and construction projects
carry numerous inherent risks. This is an area of particular vulnerability for the
Department, given the many construction and/or renovation projects it has planned or
under way for Commerce facilities. For this reason, we continue to monitor the progress
of some of the Department’s key current and planned construction projects.




Artist’s rendering of planned NOAA Fisheries research facility in Juneau.
Source: http://www.fakr.noaa.gov/lena/renderings.htm, accessed October 15, 2004.


Majo r Challenges for the                               6                                September 2004
U.S. Department of Commerce                                                  Office of Inspector General
We have just concluded a review of USPTO’s progress in completing, furnishing, and
occupying its new headquarters complex in northern Virginia (see Challenge 3 and page
39 of the September 2004 issue). We also plan to keep abreast of other major Commerce
renovation and construction projects, such as Census’s construction of its new Suitland,
Maryland, headquarters; the Department’s planned renovation of its headquarters (the
Herbert C. Hoover Building in Washington, D.C.); and NOAA’s construction of a Pacific
Region Center in Hawaii and a fisheries research facility in Juneau, Alaska.

CHALLENGE 3
SUCCESSFULLY OPERATE THE U.S. PATENT AND TRADEMARK
OFFICE AS A PERFORMANCE-BASED ORGANIZATION
The United States Patent and Trademark Office’s operation as a performance-based
organization continues to warrant special attention. USPTO maintains that the efficiency
with which it issues patents has a huge impact on the pace of technological advancement
worldwide. The prompt registration of trademarks protects commercial investment,
informs consumer choices, and promotes the availability of new goods and services.

USPTO has assumed responsibility for certain operational functions that were once
controlled or monitored at the departmental level, and it is essential that the bureau
effectively use its expanded authority over budget allocations and expenditures,
personnel decisions and processes, procurement, and information technology operations
to support the issuance of patents and trademarks.

Since 2002, USPTO has been working to                    Key USPTO Patent Statistics
implement its 21st Century Strategic Plan. The 5-                  2003
year plan was intended to help the agency
overcome the challenges accompanying its               Patent Examiners         3,579
                                                       Applications Filed     333,452
transition to performance-based operations,            Applications Granted   173,072
successfully develop necessary personnel policies,     Backlog                457,254
establish procurement and administrative policies as   First Actions          283,111
well as performance-oriented processes and             Final Disposals        284,470
standards for evaluating cost-effectiveness, and       Average Pendency       26.7mos.
meet its performance goals under the Government
Performance and Results Act (GPRA).
                                                       Source: USPTO
According to the agency, the plan provides a
roadmap for major changes in patent and trademark processes. These include steps to (1)
improve and maintain patent and trademark quality, (2) move to a paperless environment
and promote e-government, (3) enhance employee development, and (4) explore
competitive sourcing. The plan also calls for the agency to work with international
intellectual property offices to create a global framework for enforcing intellectual
property rights.



Majo r Challenges for the                   7                           September 2004
U.S. Department of Commerce                                 Office of Inspector General
Our office recently performed three reviews at USPTO. First, we reviewed patent
examiner production goals, performance appraisal plans, and awards to determine their
effect on the output of the patent examiner corps. We found that patent examiner goals
have not changed since 1976 to reflect efficiencies in work processes; patent examiners'
performance appraisal plans are not linked to their supervisors' goals or those of USPTO;
and patent examiner awards do not appear to be having their intended impact of
stimulating examiner production. (See September 2004 Semiannual Report, page 38.)

Second, we reviewed progress on construction of the agency's new, state-of-the-art
headquarters complex in Alexandria, Virginia, and its relocation to these facilities. This
project is one of the federal government's largest real estate ventures. When comp leted in
2005, the 5-building complex will bring together the majority of USPTO employees and
contractors, who are currently scattered among 18 buildings in Crystal City, Virginia.
USPTO has already occupied 3 of the new buildings and expects to take occupancy of the
remaining 2 earlier than anticipated. We found, among other things, that USPTO and
GSA have provided adequate management and financial oversight of the project; USPTO
successfully planned and executed its recent move of 2,093 employees to the 2 buildings
completed at the time of our review; and cost increases that have occurred are due
primarily to project delays beyond USPTO’s control, as well as to new requirements,
such as information technology changes and security upgrades. (See September 2004
issue, page 39.)




                Artist’s rendering of USPTO’s five-building complex in Alexandria, Virginia, clockwise
                from lower left: Remsen, Jefferson, Madison, Knox, and Randolph.
                Source: USPTO


Third, in response to complaints and a request from the agency’s chief financial
officer/chief administrative officer, we reviewed certain aspects of the Office of Human
Resources (OHR). We found among other things that the recruitment process for the
human resources director position was flawed and that USPTO, in collaboration with the
Department, needed to clarify its relationship with the Office of Personnel Management
and establish sufficient human resources policies and procedures. (See September 2004
Semiannual Report, page 40.)




Majo r Challenges for the                           8                                September 2004
U.S. Department of Commerce                                              Office of Inspector General
CHALLENGE 4
CONTROL THE COST AND IMPROVE THE ACCURACY OF
CENSUS 2010

Few Commerce activities have more ambitious goals, higher costs, or more intensive
resource requirements than the constitutionally mandated decennial census, and with each
decade, this undertaking becomes more costly, complex, and challenging. Costs of
$2.2 billion in 1980 rose to $3.3 billion in 1990 and to $6.6 billion in 2000. They have
been estimated to be $9.3 billion in 2010 (in constant 2000 dollars).

Achieving an accurate population count has        PLANNED D ECENNIAL C ENSUS T ESTS
become more difficult and costly over the
past 3 decades because the nation’s             Site Tests        2004 Census Test
                                                                  2006 Census Test
population has increased and diversified
dramatically. And much has changed in the       National Tests    2003 National Census Test
methods and technologies used for                                 2005 National Census Test
decennial census taking during that time.       Overseas Tests    2004 Overseas Census Test
But the primary weaknesses we noted in                            2006 Overseas Census Test
monitoring the 1980, 1990, and 2000
                                                Dress Rehearsal   2008
decennials have remained the same and are
at least partially responsible for the
ballooning costs: insufficient planning and
lack of upfront funding for an undertaking    Source: U.S. Census Bureau
that by its very nature requires long-term
vision and development, as well as appropriate testing at key points along the way.

The Census Bureau has taken numerous steps toward improving 2010 operations and
controlling costs. In September 2002 it adopted a reengineered framework for conducting
the decennial: an American Community Survey to collect and tabulate long-form data
                           throughout the decade; an enhanced address list and
                           geographic information database; and a program of early
                           planning, development, and testing for a short- form-only
                           census. The three-pronged strategy is ambitious and intended
                           to capitalize on the latest technology, such as handheld
                           computers equipped with global positioning system
                           capabilities for field operations, including address canvassing
                           and nonresponse follow-up data collection.

                           In this semiannual period, we assessed the 2004 census test
The palm -sized handheld   (see September 2004 Semiannual Report, page 20), in which
computer used for the 2004 the bureau tested, among other things, the feasibility of using
NRFU operation.            handheld computers to automate nonresponse follow- up
(NRFU). The test was conducted in a portion of New York City and in three rural
counties in south central Georgia. We found that the handheld computers and related

Majo r Challenges for the                     9                            September 2004
U.S. Department of Commerce                                    Office of Inspector General
automation are promising replacements for paper-based processes, and the enumerator
workforce was able to use the handhelds.

However, the test exposed issues that will have to be addressed for future tests and the
2010 census, including problems with data transmissions, technical support to the field,
and the bureau's system and software engineering practices. Among other areas we noted
in need of improvement were enumerator training, planning for tests of revised group
quarters definitions, and several management and administrative activities.

We will continue our focus on the bureau’s planning for the 2010 decennial, including its
preparation for the 2006 site test, as well as review other issues and related matters that
could have an impact on the decennial.

CHALLENGE 5
INCREASE THE EFFECTIVENESS OF MARINE RESOURCE
MANAGEMENT
The National Marine Fisheries Service (NOAA Fisheries) must balance two competing
interests: (1) promoting commercial and recreational fishing as vital elements of our
nationa l economy and (2) preserving populations of fish and other marine life. The
Magnuson-Stevens Act of 1976, the Marine Mammal Protection Act of 1972, and the
Endangered Species Act of 1973 gave NOAA Fisheries responsibility for rebuilding and
maintaining sustainable fisheries and promoting the recovery of protected marine species.
The Magnuson-Stevens Act also made NOAA Fisheries the primary federal agency for
managing marine fisheries and established a regional fishery management system to help
the agency carry out its mission. The 1996 amendments to the act strengthened NOAA
Fisheries’ role in protecting and sustaining fisheries and their habitats.


PACIFIC COASTAL SALMON RECOVERY FUND

Established by Congress in 2000 at the request of the states of Washington, Oregon,
California, and Alaska, the Pacific Coastal Salmon Recovery Fund provides grants to
these states and their resident Native American tribes to support local salmon
conservation efforts. The fund is the third largest source of federal support for salmon
recovery efforts and the largest financial assistance program in this area administered by
NOAA.

Given the millions of dollars at stake and the importance of the NOAA program, we
turned our attention this semiannual period to salmon recovery fund awards, concluding
the first three in a series of planned audits.




Majo r Challenges for the                   10                            September 2004
U.S. Department of Commerce                                   Office of Inspector General
       Pacific Coastal Salmon Recovery Funding Administered by NOAA (in millions)
                         FY 2000      FY 2001       FY 2002       FY 2003      FY 2004         Totals
    Washington              $18.0         $30.2         $34.0        $27.8        $26.0        $136.0
    Alaska                  $14.0         $19.5         $27.0        $21.9        $20.6        $103.0
    California               $9.0         $15.1         $17.0        $13.9        $13.0         $68.0
    Oregon                   $9.0         $15.1         $17.0        $13.9        $13.0         $68.0
    Idaho                    $.00          $.00          $.00         $.00          $4.9          $4.9
    Pacific Coastal          $6.0          $7.4         $11.0         $8.9          $8.4        $41.7
    Tribes
    Columbia                 $2.0          $2.5          $4.0         $3.0          $3.1        $14.6
    River Tribes
                 Total      $58.0         $89.8       $110.0         $89.4        $89.0        $436.2
Source: FY 2000-2004 figures at
http://webapps.nwfsc.noaa.gov/servlet/page?_pageid=1292&_dad=portal30&_schema=PORTAL30, accessed October
15, 2004; totals provided by OIG.


Our initial reviews focused on programs operated by an Oregon state agency and a
Washington state Indian commission. In each case, we questioned significant portions of
costs claimed by the recipients and recommended recovery of federal funds. We are
keeping NOAA advised of the results of our ongoing audits so that the agency is able to
address common issues through strengthened grants management.

U.S. COMMISSION ON OCEAN POLICY

In September 2004, the U.S. Commission on Ocean Policy presented
its final report—An Ocean Blueprint for the 21st Century—detailing
its findings regarding the state of our nation’s ocean and coastal
resources, and offering recommendations for building a coordinated
and comprehensive national ocean policy. The last comprehensive
review of U.S. ocean policy was conducted 35 years ago. Since
then, our oceans and coasts have changed drastically—more than 37
million people, 19 million homes, and countless businesses have
been added to coastal areas.

In its report, the commission called for, among other things, a
review of all federal agencies with ocean-related responsibilities,
with an eye toward eliminating redundant programs, and
recommended greatly expanding NOAA’s environmental stewardship activities. The
areas identified in the commission’s report, especially those concerning NOAA’s broader
environmental stewardship responsibilities, will draw our attention in the future.




Majo r Challenges for the                          11                               September 2004
U.S. Department of Commerce                                             Office of Inspector General
CHALLENGE 6
PROMOTE FAIR COMPETITION IN INTERNATIONAL TRADE
To compete effectively in today’s global marketplace, many U.S. companies need help
accessing new or expanded export market opportunities as well as addressing unfair trade
practices, trade disputes with foreign firms, noncompliance with or violations of trade
agreements, inadequate intellectual property protection, and other impediments to fair
trade. Commerce must ensure that its export promotion assistance and trade compliance
and market access efforts adequately serve U.S. exporters, and its enforcement of U.S.
trade laws helps eliminate unfair competition from imports priced at less than fair market
value or subsidized by foreign governments.

To help meet the challenges in highly competitive world markets, Commerce and its
International Trade Administration (ITA) work with the Office of the U.S. Trade
Representative, the Departments of State and Agriculture, and numerous other federal
agencies to monitor and enforce trade agreements. The number and complexity of those
agreements have increased substantially in recent years, and the Secretary of Commerce
has made monitoring and enforcing trade agreements and laws a top priority for ITA and
the Department as a whole. Over the years, Commerce has received additional funding
for trade compliance activities, such as placing compliance officers overseas in several
key markets. Increased funding has enabled ITA to attract needed staff without having to
request special hiring authority or offer recruitment incentives (see March 2003
Semiannual Report, page 20).

Commerce’s many overseas posts and domestic           Commerce has numerous mechanisms to
                                                      monitor and help enforce U.S. trade agreements
U.S. export assistance centers (USEACs) help          and review trade complaints. When warranted,
U.S. companies identify specific export               its Trade Compliance Center forms teams to
marketing opportunities and trade leads and           follow up on complaints and bring them to
                                                      satisfactory conclusion. ITA’s overseas
offer other trade promotion and export finance        offices, operated by the U.S. and Foreign
counseling services, especially to small and          Commercial Service, and its other operating
medium-size firms that are new to exporting or        units perform a substantial amount of market
                                                      access and trade compliance work. Overall,
seeking to expand their overseas markets.             ITA’s approach to trade compliance and market
During this past year, we reviewed three              access is to engage the issue at the working
USEAC networks—Chicago, Pacific                       level wherever possible, thus avoiding formal
                                                      dispute settlement structures such as the World
Northwest, and Philadelphia—that comprise 28          Trade Organization, which can take years to
individual centers operated by ITA’s                  resolve trade disagreements. The Department
Commercial Service. We evaluated their                and ITA pursue important matters of policy—
                                                      such as intellectual property rights protection,
management operations and ability to provide          standards development, trading rights, and
value-added export counseling to U.S.                 distribution services—in government-to-
companies (see March 2004 Semiannual                  government negotiations.
Report, page 24). During this semiannual
period, we released a crosscutting report on strengths and weaknesses common to the
networks (see September 2004 issue, page 25). In each network, we found that client
satisfaction was high, strong relationships existed with local partners, and financial and
administrative operations were generally sound. However, we also noted inconsistencies

Majo r Challenges for the                         12                              September 2004
U.S. Department of Commerce                                           Office of Inspector General
in reporting and oversight that led to overstated export success dollar values—a key
barometer of performance. Since we first identified problems with export success
reporting, ITA and Commercial Service have taken a number of steps to improve related
quality controls and oversight of the process, and they are working to train managers and
staff in correct reporting procedures. However, further improvements are needed in the
reporting guidelines and management accountability.

Our USEAC findings mirrored those of our recent reviews of overseas operations.
Inspections of Commercial Service posts in Greece and Turkey revealed that, again, most
customers were satisfied with the products and services they received, but both posts had
overstated the value of their export successes. (For more detail on Greece, see September
2003 Semiannual Report, page 22. For Turkey, see the March 2003 issue, page 19.)

We also report in this issue the findings of our inspection of Commercial Service’s post
in India (see September 2004 Semiannual Report, page 26). We found that the post is
generally doing a good job of providing export assistance to U.S. companies and
collaborates well with its trade partners, other components of the U.S. mission and ITA,
and other government agencies. But as at the USEACs and other overseas posts we have
inspected, the India post’s reported export successes were problematic. In many cases we
could not verify the link between Commercial Service assistance and the reported export
success, and we identified several that did not meet the criteria of an export success.
Although, as noted earlier, Commercial Service and ITA have taken steps to improve
management oversight of reporting, we are concerned that Commercial Service’s new,
written FY 2004 reporting guidelines have reduced management accountability for
ensuring the accuracy and integrity of export success reports. We will continue to
monitor these areas and report on the Department’s efforts to resolve issues we identify.

CHALLENGE 7
ENHANCE EXPORT CONTROLS FOR DUAL-USE COMMODITIES

The National Defense Authorization Act (NDAA) for Fiscal Year 2000, as amended,
directed the inspectors general of the Departments of Commerce, Defense, Energy, and
State, in consultation with the directors of the Central Intelligence Agency and the
Federal Bureau of Investigation, to report to Congress by March 30, 2000, and annually
until the year 2007, on the adequacy of export controls and counterintelligence measures
to prevent the acquisition of sensitive U.S. technology and technical information by
countries and entities of concern. In addition, NDAA for FY 2001 requires the IGs to
discuss in their annual interagency report the status or disposition of recommendations
made in earlier reports submitted in accordance with the act.

Our FY 2004 NDAA work dealt with the effectiveness of dual-use deemed export
regulations and policies, 2 including their implementation by BIS, and compliance with

2
 According to the Export Administration Regulations, any release to a foreign national of technology or
software subject to the regulations is deemed to be an export to the home country of the foreign national.

Majo r Challenges for the                            13                              September 2004
U.S. Department of Commerce                                              Office of Inspector General
the regulations by U.S. industry, Commerce agencies, and academic institutions. (See
March 2004 Semiannual Report, page 14.) We found that certain aspects of BIS’ deemed
export outreach program are working well, but we also identified problems that hamper
the efforts of both BIS and the U.S. government to more effectively prevent the transfer
of sensitive technology to foreign nationals from countries or entities of concern while
they are in the United States. In addition, our most recent follow-up report on prior OIG
recommendations noted closure of all outstanding issues from 2000, but numerous
recommendations from subsequent years are still open. (See March 2004 Semiannual
Report, page 17.) BIS has since submitted an action plan to address our deemed export
recommendations and notes that it is developing a deemed export compliance program
and deciding whether to modify its regulations and public guidance. It also reports
having increased its deemed export educational outreach to companies, universities, and
research institutions.

For the 2004 interagency report, the IG review team (Commerce, Defense, Energy, State,
and the CIA) and the Department of Homeland Security’s OIG 3 completed a crosscutting
review of the adequacy and effectiveness of government-wide efforts to promote
compliance with deemed export control laws and regulations and to determine whether
they protect against the transfer of controlled U.S. technologies and technical
information. (See September 2004 Semiannual Report, page 14.)

REVIEW OF THE EXPORT LICENSING PROCESS FOR CHEMICAL AND
BIOLOGICAL COMMODITIES

To comply with NDAA’s FY 2005 requirement, we are reviewing the export licensing
process for chemical and biological commodities to determine whether current licensing
and enforcement practices are consistent with relevant laws and regulations, as well as
established national security and foreign policy objectives, such as those set forth in the
President’s National Strategy to Combat Weapons of Mass Destruction (December
2002). In addition, we are assessing the effectiveness of coordination between the
various federal agencies during the export licensing process for these commodities.

While BIS, the administration, and Congress work to target federal licensing and
enforcement efforts on exports that present the greatest proliferation and national security
risks, and streamline or eliminate controls that hamper trade and are not necessary to
address national security or foreign policy concerns, congressional enactment of a new
Export Administration Act is vital to the success of the U.S. government’s efforts to
enhance export controls. We will continue to monitor BIS’ efforts to improve the
effectiveness of dual- use export controls.




These exports are commonly referred to as “deemed exports” and may involve the transfer of sensitive
technology to foreign visitors or workers at U.S. research laboratories and private companies.
3
  Homeland Security participated in the 2004 assessment because of the nature of the review topic.


Majo r Challenges for the                          14                              September 2004
U.S. Department of Commerce                                            Office of Inspector General
CHALLENGE 8
ENHANCE EMERGENCY PREPAREDNESS, SAFETY, AND
SECURITY OF COMMERCE FACILITIES AND PERSONNEL
Since our March 2002 report on the status of emergency preparedness and security
programs at a cross-section of Commerce facilities, the Department has made significant
improvements, but the challenge remains. Heightened security requires a variety of
measures: infrastructure risk assessments, emergency backup sites, upgraded physical
security, and employee awareness and training, to name a few. Despite progress in these
areas, the Department needs to regularly reassess its security status to ensure it provides
adequate protections for employees and operations, and must make modifications as
needed.

Commerce has reported a number of actions to enhance security thus far this year. This
includes drafting a new Department Administrative Order relating to foreign national
visitors and guest researchers in Commerce facilities, which is currently being reviewed
by Commerce bureaus. The Department also reported that it has conducted numerous risk
assessments of Commerce facilities and compliance reviews of security containers4 and
classified documents to help ensure the safety of Commerce personnel and national
security information. Commerce’s Office of Security is also working with bureaus to
develop or update their continuity of operations and emergency operations plans.

Given the size of its workforce and the geographical spread of its hundreds of facilities
nationwide and at more than 150 overseas locations, complying with recent security-
related guidance is a complex, resource- intensive undertaking for Commerce. Our
inspections of overseas posts and domestic U.S. export assistance centers operated by the
Commercial Service identified the need for more timely security upgrades, improved
oversight of security operations, and in some cases, specific security improvements.

We believe Commerce is making progress on many emergency preparedness, safety, and
security fronts, but the challenge is massive. OIG is currently conducting a follow-up
review of the Department’s emergency preparedness efforts to ascertain the status of
these activities and to identify other areas that may still need to be addressed.


CHALLENGE 9
CONTINUE TO STRENGTHEN FINANCIAL MANAGEMENT
CONTROLS AND SYSTEMS

Federal law requires agencies to prepare and disseminate financial information, including
audit reports on their financial statements, to enable Congress, agency executives, and the

4
 Security containers are secure receptacles (e.g., safes) or holding areas for classified documents and
materials.

Majo r Challenges for the                            15                               September 2004
U.S. Department of Commerce                                               Office of Inspector General
public to assess an agency’s operational and program management and to determine
whether its financial management systems comply with legislative mandates.

The Department has now implemented the Commerce Administrative Management
System, achieved and maintained unqualified opinions on its consolidated financial
statements, and come into substantial compliance with the Federal Financial Management
Improvement Act—all significant accomplishments. These successes reflect
management’s commitment to and success at addressing the findings of deficient internal
controls and financial management systems identified in our audits and other reviews
over the past decade.

Nevertheless, maintaining sound financial management controls and systems remains a
challenge, given the Department’s size, the diversity of its mission-related activities, its
complex mix of financial systems and operations, and the billions of dollars it must
account for each year. We will continue to monitor a range of financial management
issues, including Commerce’s progress in meeting the accelerated financial reporting
dates required by OMB for the FY 2004 financial statements audit—now due just 45 days
after year-end; the effectiveness of the Department’s internal controls; the International
Trade Administration’s progress toward implementing full cost recovery to comp ly with
OMB Circular A-25; and the Department’s maintenance and operation of financial
systems, including change management for updating software.


CHALLENGE 10
CONTINUE TO IMPROVE THE DEPARTMENT’S STRATEGIC
PLANNING AND PERFORMANCE MEASUREMENT IN
ACCORDANCE WITH THE GOVERNMENT PERFORMANCE AND
RESULTS ACT

Congress and agency managers require relevant performance measures and credible
performance data to effectively oversee federal programs. The Government Performance
and Results Act of 1993 was designed to ensure the availability of such data by
mandating that agencies set goals for program performance and report outcomes
measured against them. Accurate performance results are essential to agencies’ ability to
develop integrated budget and performance information and to make sound funding
decisions.

Over the past several years, we have reviewed the collection and reporting of
performance data by eight of Commerce’s largest operating units. Our audits have
identified the need for (1) stronger internal cont rols to ensure that reported data is
accurate, (2) measures that clearly articulate what is being assessed, and (3) improved
explanations and disclosures to clarify and enhance the usefulness of the results.

During this past semiannual period, these same issues emerged in our audit of NOAA
performance measures supporting the agency’s goals of building sustainable fisheries,

Majo r Challenges for the                   16                            September 2004
U.S. Department of Commerce                                   Office of Inspector General
recovering protected species, and predicting and assessing decadal to centennial climate
change. We found that reporting for all three of the goals was problematic: in some
cases, titles of measures did not clearly convey what was being assessed; in others,
explanations and verification details were incomplete, or supporting documentation was
inadequate. To correct these deficiencies, NOAA needs to (1) revise or otherwise clarify
certain performance measures, (2) strengthen internal controls to ensure that reported data
is fully supported and adequately explained, and (3) provide complete and appropriate
detail in discussions of results. (See September 2004 Semiannual Report, page 29.)

The operating units for which we have completed performance measure audits have been
responsive to our recommendations: they have developed action plans to address
identified deficiencies and have revised previously reported performance information
accordingly. As each unit takes such steps, we are confident that performance data will
become more reliable and useful, and thus better serve the purpose and intent of GPRA.




Majo r Challenges for the                   17                           September 2004
U.S. Department of Commerce                                  Office of Inspector General
